<html>
<title> - REFORMING THE NATIONAL SECURITY COUNCIL: EFFICIENCY AND ACCOUNTABILITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]











 REFORMING THE NATIONAL SECURITY COUNCIL: EFFICIENCY AND ACCOUNTABILITY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2016

                               __________

                           Serial No. 114-224

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______
 
                          U.S. GOVERNMENT PUBLISHING OFFICE 
 
 21-460PDF                     WASHINGTON : 2016 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Publishing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable David C. Miller, Jr., Non-Resident Senior Fellow, 
  The Atlantic Council (former Special Assistant to the 
  President, National Security Council)..........................     4
The Honorable Lincoln P. Bloomfield, Jr., Chairman of the Board, 
  The Stimson Center (former Assistant Secretary for Political 
  Military Affairs, U.S. Department of State)....................    12
The Honorable Derek Chollet, Counselor and Senior Advisor for 
  Security and Defense Policy, The German Marshall Fund of the 
  United States (former Assistant Secretary for International 
  Security Affairs, U.S. Department of Defense)..................    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable David C. Miller, Jr.: Prepared statement...........     7
The Honorable Lincoln P. Bloomfield, Jr.: Prepared statement.....    14
The Honorable Derek Chollet: Prepared statement..................    20

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    53
The Honorable David C. Miller, Jr.: Material submitted for the 
  record.........................................................    55
The Honorable Lincoln P. Bloomfield, Jr.: Material submitted for 
  the record.....................................................    63
 
 REFORMING THE NATIONAL SECURITY COUNCIL: EFFICIENCY AND ACCOUNTABILITY

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:00 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. If we could ask all the members to take 
their seat and the audience as well, this hearing Reforming the 
National Security Council: Efficiency and Accountability, will 
come to order.
    In recent years, there has been increasing bipartisan 
concern over the size and the role of the President's National 
Security Council. In too many cases, its traditional role of 
``honest broker'' has evolved to a policy-making role. It has 
even undertaken secret diplomatic negotiations and that has 
been done outside of Congress' view.
    Indeed, one observer recently wrote, ``The national 
security advisor and his or her staff remain among the most 
influential entities in the Federal bureaucracy that are not 
subject to direct congressional oversight.'' This has proven to 
be a problem for this committee.
    While concerns about the NSC aren't new, they have reached 
new heights, leading to current proposals before Congress to 
statutorily restrict the size of the NSC staff. This is a staff 
that has increased from 100 persons at the start of President 
George Bush's presidency to reportedly over 400 people today on 
the NSC staff. Such a large staff sends the message that the 
President intends to run foreign policy and military operations 
out of the White House to the exclusion of the cabinet.
    It also makes for more meddlers. Indeed, former Defense 
Secretary Gates has complained that the ``micromanagement'' of 
the Obama White House ``drove me crazy.'' A smaller staff would 
more likely empower cabinet secretaries to do what they have 
been selected and confirmed by the Senate to do and that is to 
run their departments.
    More staff means more meetings and often paralysis. 
According to a report in the Washington Post last year, on some 
issues, NSC meetings of the cabinet deputies ``grew so 
repetitive'' that ``deputies stopped coming, sending assistant 
secretaries and below in their stead.'' How many hearings has 
the committee held on Ukraine at which State Department 
officials have told us that the White House is still debating 
Kiev's request for heavy defensive weapons?
    Also of concern, the profile of an NSC staffer has changed 
from a seasoned professional doing a stint at the White House 
as the capstone of their career, to that of junior 
professionals just off the campaign trail. As one interviewed 
for the Atlantic Council's Study we will hear about today said, 
``This is no place for on-the-job training of bright, young, 
but inexperienced people.'' Especially at the expense of the 
State Department.
    Take the President's move to normalize relations with Cuba, 
secretly run out of the White House by two NSC staffers. 
Secretary of State Kerry was not informed of these negotiations 
until the discussions were well underway, and State Department 
officials in charge of the region found out only as the 
negotiations were all but done.
    Why do we care? When the committee requested that these NSC 
staffers testify, we were told no and given a separation of 
powers excuse. But our role and the responsibility is to 
conduct oversight of U.S. relations with foreign nations. And 
if the committee can't hear directly from those most involved 
in these negotiations, our role and influence--and that of the 
American people we represent--is significantly minimalized.
    This morning, we will hear from several witnesses who have 
direct experience with the growing size and role of the 
President's NSC. While today's focus is about process, process 
is important to good policy. And we hope that our discussion 
will lead to recommendations for the next administration to 
improve the efficiency of this important body.
    And I now turn to the ranking member for any opening 
remarks from Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this hearing. Ambassador Miller, Ambassador Bloomfield, Mr. 
Chollet, welcome to the Foreign Affairs Committee. We are 
grateful for your time and your expertise.
    It has been nearly 70 years since the National Security Act 
created the National Security Council. Over that time, the 
council has proved to be a flexible and dynamic body. Every 
President has shaped the NSC staff in a way that has worked 
best for his purposes.
    Congress intended for the NSC staff to serve as the 
President's advisory and interagency coordinated body. As the 
National Security Act put it, to ``advise, coordinate, access 
and praise'' policymakers relating to national security.
    Obviously, over that time, national security politics and 
concerns has changed, as the world has changed and the NSC has 
had to keep pace. As we think about how the NSC might look 
under future administrations, we should keep in mind lessons 
learned in the NSC's first 70 years.
    First, a selection of a National Security Advisor is one of 
the most critical appointments the President will make. This 
person sets the tone for the rest of the NSC and the National 
Security Agencies. The President should have full faith with 
the National Security Advisor as a trusted confident, a role 
that Congress has supported.
    Secondly, the President's policy staff should be national 
security experts with experience managing interagency 
processes. Even though many of them are detailed from other 
parts of the government, their loyalty should be to our 
national security and not to any one agency or service.
    And thirdly, while the NSC staff should certainly be in the 
business of advising the President on policy and ensuring the 
agencies are carrying out that policy, the NSC staff itself 
should not be carrying out the policy. That responsibility 
rests with the cabinet agencies with Congress' oversight.
    It is essential to our discussion today how do we ensure 
that the execution of foreign policy stays where it belongs. 
One common explanation is that the NSC mission creep results 
from the NSC staff growing too large and the easy solution is 
to limit the size of the staff. I am sympathetic to that 
feeling because we don't want it to be too large and we don't 
want it to be usurping things that the State Department or the 
Agency should do. But it is not just that. That, in itself, in 
my opinion, is too simplistic. It fails to take into account 
why the staff is growing and ignores the bureaucratic demands 
placed in the NSC.
    The real questions we should be asking are about the 
appropriate role of the NSC and how it is managed, issues that 
are important, regardless of the size of the staff. I do want 
to say that I am concerned about the size of the staff but I 
think these other things are at least equal of concern as well.
    In a certain way, the NSC was set up as a clearing house. 
Seventy years ago, the cabinet agencies had relatively clear-
cut missions with a minimal amount of overlap. When matters 
emerged that required cross-agency collaboration or tradeoffs, 
the question went up the food chain to the NSC and the NSC 
coordinated among agencies.
    Today, we face so many more issues that are crosscutting 
and overlapping and they often involve a whole host of cabinet 
agencies. Just consider the Zika virus. State Department, HHS, 
and the Agriculture Department all have roles to play in 
addressing that problem but our civilian agencies are still 
essentially a stovepipe bureaucracy. So, when questions emerge 
about one of the many complex national security issues we face, 
those questions still get passed up to the NSC, often leaving 
policy-making decisions in the White House's hands. Over time, 
this pattern has forced the staff to grow as well. Past 
attempts to create so-called tsars to oversee overlapping 
issues have proved to be a Band-Aid at best, and at worst, 
totally ineffective. So, how do we empower our agencies to deal 
with a modern set of challenges without having their first 
phone call be to the White House? How do we modernize our 
agencies and, we think, decades-old bureaucratic structures 
ill-suited to the new challenges we face?
    We know this sort of reform is possible. We saw it succeed 
decades ago when the Goldwater-Nichols Act forced our military 
services to work together in joint commands. That law promoted 
collaboration and a more unified approach to military concerns. 
Following the same approach, we need to make it easier for the 
talented men and women in our cabinet agencies to collaborate 
and arrive at policy consensus. That way, NSC staff could get 
back to their original mission, advising the President on 
policy, seeing that policy carried out, and facilitating 
coordination among agencies only in those instances when it is 
absolutely necessary.
    Yet, we simply cannot expect our agencies to shake off 
decades-old procedures and habits if Congress isn't providing 
them with the tools and resources they need to become 
effective, modern organizations. It has been 15 years since 
Congress sent a State Department authorization to the 
President. I want to repeat that, 15 years since Congress sent 
a State Department authorization to the President. I don't 
think anyone on this committee, on both sides of the aisle, is 
happy about that. This committee recently marked up such 
legislation. It is sitting on the launch pad, waiting for House 
leadership to say go. I think the problem that we are 
discussing today is one more reason that the House needs to 
finish its work on the bill and I would encourage all the other 
National Security Committees to look at what needs to be done 
to bring their agencies into the 21st century.
    To our witnesses: I am curious to hear your views on the 
structure of the NSC and how we can make our agencies more 
effective and collaborative when it comes to policymaking. 
Again, we are grateful for your time.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Engel. So, this morning we 
are pleased to be joined by a distinguished panel. We have 
Ambassador David Miller. He is a Nonresident Senior Fellow at 
the Atlantic Council. Previously, Ambassador Miller served as 
the Special Assistant to the President for National Security 
Affairs at the National Security Council staff. Additionally, 
he served as the United States Ambassador to Zimbabwe and to 
Tanzania.
    The Honorable Lincoln Bloomfield. Ambassador Bloomfield is 
chairman of the board of the Stimson Center and previously he 
held a series of positions in the Departments of State and 
Defense, including serving as the Assistant Secretary of State 
for Political Military Affairs.
    And we have the Honorable Derek Chollet. He is Counselor 
and Senior Advisor for Security and Defense Policy at the 
German Marshall Fund of the United States and previously he 
served as the Assistant Secretary for International Security 
Affairs at the Department of Defense.
    Without objection, the witnesses' full prepared statements 
will be made part of the record and members will have 5 
calendar days to submit any statements or questions or any 
extraneous material for the record.
    So, Ambassador Miller, if you could please summarize your 
remarks, we will begin with you.

 STATEMENT OF THE HONORABLE DAVID C. MILLER, JR., NON-RESIDENT 
 SENIOR FELLOW, THE ATLANTIC COUNCIL (FORMER SPECIAL ASSISTANT 
          TO THE PRESIDENT, NATIONAL SECURITY COUNCIL)

    Ambassador Miller. Thank you, Mr. Chairman. It is nice to 
see you again.
    Chairman Royce. Good to see you back.
    Ambassador Miller. We spent many interesting hearings on 
Africa, so it is great to be back.
    Ranking Member Engel, thank you and all the members of the 
committee. I must say I am exceptionally pleased to see this 
many members of your body interested in the management of the 
NSC. It is an immensely serious topic. It doesn't get a lot of 
public discussion.
    Chairman Royce. I am going to ask you, though, Ambassador, 
to move your microphone right there.
    Ambassador Miller. Does that work? Good. It is just a lack 
of practice. I will get it.
    I am here today to present the Atlantic Council report, 
which I think you all have seen a copy of. It is named ``A 
Foundational Proposal for the Next Administration.'' It was 
drafted over a couple of years by Ambassadors Tom Pickering and 
Chet Crocker, myself, and Dan Levin. I suspect you know most of 
them and have talked with them before.
    The report is meant to address two issues, that is, what 
did we learn over the 60 or some interviews we conducted over 2 
years. The interviews were conducted by all of us in-person. We 
felt that the subjects that were being discussed were sensitive 
enough that when you interviewed former cabinet officers or 
national security advisors that those doing the interviewing 
had to have had similar jobs, sat in the same meetings, and 
been subject to the same pressures.
    I must say that the opening comments were excellent and, in 
many ways, speak to our observations but let me offer a few 
comments on the spirit of our report.
    We spent so much time on the NSC because if it doesn't 
work, it is like congestive heart failure. If the NSC is not 
working well, the entire executive branch foreign policy and 
military structure slows down and is not effectively used.
    And there is another point that I would like to make at the 
outset and I hope will make throughout the presentation and 
that is, this is a non-partisan report. We looked at 
administrations going back for some period of time. General 
Scowcroft's thesis at West Point was on the Eisenhower NSC. So, 
we go back a good ways.
    I am fond of describing the document as an owner's manual 
for the NSC. It tells you what has worked in the past, what has 
not worked, and it is policy neutral, if you will. It is meant 
to say if you want to run an NSC in a manner that has been 
effective in the past, take a look at this document. Learning 
how to run the NSC is something that we may have lost track of.
    The recommendations are quite simple and they are 
coincident with what you two have mentioned in your opening 
comments. The NSC needs to get back to its original mission of 
coordinating policies for the President and then ensuring that 
those policies are faithfully executed. The role of the 
National Security Advisor is absolutely critical. It is 
clearly, I believe, the most important Presidential appointment 
not subject to Senate confirmation.
    The size of the NSC staff has, as we have all observed, 
grown quite large. There are a variety of reasons for that but 
it is much larger than it has been historically.
    The NSC has struggled, over time, with creating a strategic 
planning staff that has never worked too well and there are 
some issues about how to coordinate executive branch legal 
advice better.
    In the few moments I have left, the chairman had a question 
about why this happened. I think to a certain degree, the most 
important factor is inertia. It has just grown. It has not been 
successfully checked by the Congress or by cabinet members or 
agency heads. There is another observation that the NSC has 
become in-box driven, that there are so many issues in the 
world that surely, the President must have a position on all of 
them. The 24-hour news cycle I think is another contributing 
factor. We have talked to senior NSC officials who said the 
ability to delegate key Presidential positions to departments 
and agencies to make public statements has not worked 
exceptionally well.
    The State Department, where I enjoyed working and am proud 
to have worked with the foreign service, is still seen as being 
too slow, too bureaucratic and we all need to address that. The 
multi-disciplined threat that you have mentioned is another 
issue where the NSC has stepped in and added personnel to deal 
with that. And finally, there is an issue that I will touch on 
at the end and that is there seems to have developed a serious 
split in this town between politically loyal foreign policy 
professionals and professionals that work for the departments 
and agencies. I think we need to address that.
    Finally, and I thought your comments about the lack of an 
authorization bill for the State Department were bang on. There 
is little reward in this town for building institutional 
capability in the executive branch. That is in some distinction 
from the private sector, where the building of institutional 
capability is seen as a key responsibility for a CEO.
    I am over my time but I have one less thing I would like to 
say. I have been out of town for a little bit and when I came 
back and got involved in writing this, my friends said to me, 
David, you have been gone too long. I am in San Antonio. And 
the trust that was in this town when I was younger, which was 
some time ago, seems to have gone. And I hope this hearing is 
part of a step to begin to develop a more civil dialogue among 
those of us who may see issues differently but we all love the 
country.
    That is it.
    [The prepared statement of Ambassador Miller follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
      
                              ----------                              

    Chairman Royce. Ambassador Miller, that is exactly the tone 
we want to set and we appreciate you being the lead witness 
here.
    Ambassador Bloomfield.

STATEMENT OF THE HONORABLE LINCOLN P. BLOOMFIELD, JR., CHAIRMAN 
 OF THE BOARD, THE STIMSON CENTER (FORMER ASSISTANT SECRETARY 
   FOR POLITICAL MILITARY AFFAIRS, U.S. DEPARTMENT OF STATE)

    Ambassador Bloomfield. Thank you, Chairman Royce, Ranking 
Member Engel. Thank you, members of the committee, for the 
honor of testifying before you today. I would like to second 
the remarks that both of you made. And it is clear that the 
issues that are covered in my prepared testimony are the same 
ones that you have already articulated.
    I really want to make four brief points from the standpoint 
of someone who does not have the most recent experience and has 
not served on the NSC but, in the last 35 years, I have been in 
the interagency in five different administrations. So, I am 
going to take a broader view.
    I will play the resident optimist. I think everyone who is 
here in this room today is here because they believe that it 
can be fixed and so do I.
    The first point starts with the legal mandate for the NSC 
and the privileges that the NSC enjoys. So long as the NSC 
staff and the national security advisor are coordinating the 
work of the other national security agencies of government and 
following the legal mandate to make the tools of government 
more integrated and more effective, military and non-military, 
then they should continue to enjoy the prerogative of being the 
President's staff and, therefore, not being Senate-confirmed, 
not being subject to testimony, not having their paperwork 
subject to the same oversight and public oversight that the 
line agencies of government have.
    That said, there are lines that they can cross, and have in 
the past, where these privileges come into question. One of the 
two sources that I consulted, and I applaud the effort of the 
Atlantic Council and its co-chairs, both of whom I greatly 
respect, but I have in my hand the so-called Tower Commission 
Report. And people of a certain age will remember this big blue 
book that I am holding. This was one of the eight 
investigations on the Iran-Contra Affair. This was done by 
three very respected statesmen, Senator John Tower, Senator 
Edmund Muskie, and Lieutenant General Brent Scowcroft, who had 
previously served as President Ford's National Security 
Advisor. They found that the NSC Advisor and staff had 
conducted a covert operation in transferring funds to the 
Nicaraguan contras. And without re-litigating the merits of the 
case, they issued a warning to future Presidents, which I will 
read to you. They are warned, and members of the National 
Security Council and National Security Advisors, ``of the 
potential pitfalls they face, even when they are operating with 
what they consider the best of motives.''
    So, I think that there is a cautionary note. There may be 
issues where the NSC is becoming operational and setting 
policy, rather than coordinating it. And that is, historically 
speaking, a problem.
    The second source and the third point I want to make has to 
do with the evolution of the NSC and, with the privilege of the 
committee, I would like to hold up a book by my late father, 
MIT Professor of Political Science Lincoln Bloomfield, who 
served on the NSC under his colleague, Zbigniew Brezezinski, 
for 1 year under the Carter administration and wrote in 1982 
``The Foreign Policy Process: A Modern Primer,'' in which he 
reviewed 40 years of National Security Councils.
    Among the insights gained here were that technology moves 
only in one direction. Under the Kennedy administration, the 
White House Communications Agency installed equipment so that 
the White House could see the same diplomatic dispatches, the 
same military dispatches, the same intelligence reports as the 
other agencies, which made them more powerful and brought them 
into the conversation.
    Under the Nixon administration, they had secure facsimiles. 
So, now, the White House could send agendas and papers for 
discussion in the situation room. And Dr. Kissinger famously 
used this to great effect, and was actually dual-hatted as 
Secretary of State and NSC Advisor for 2 years.
    And so, in some ways, you can't turn the clock back to the 
1970s or '80s, or the 1950s, and we have to recognize this.
    But before we conclude, and this is my final point, that 
the NSC needs to be--that there is a right size for the NSC and 
that the President's prerogative should be, in some way, 
changed or interfered with by the Congress. I think it is 
really important to recognize that the NSC is trying to chase a 
bureaucracy in Washington that is much bigger than it was 20 or 
30 years ago. There are so many more undersecretaries and 
assistant secretaries and issue-specific offices that they are 
asked to coordinate that you could understand why the size has 
gotten larger. And I think this leads to, perhaps, a broader 
conversation on how to right-size the entire national security 
process.
    I published last Friday, in Foreign Policy, an article that 
takes a slightly larger view of the national security 
management challenge and I commend it to the members, I think 
copies have been made available, and with the chairman's 
permission and the ranking member, I would hope perhaps it 
could be brought into the official record or the hearing.
    Chairman Royce. Without objection.
    Ambassador Bloomfield. Thank you, sir.
    [The prepared statement of Ambassador Bloomfield follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Chairman Royce. Mr. Chollet.

STATEMENT OF THE HONORABLE DEREK CHOLLET, COUNSELOR AND SENIOR 
 ADVISOR FOR SECURITY AND DEFENSE POLICY, THE GERMAN MARSHALL 
   FUND OF THE UNITED STATES (FORMER ASSISTANT SECRETARY FOR 
  INTERNATIONAL SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE)

    Mr. Chollet. Mr. Chairman, Ranking Member Engel, members of 
the committee, it is an honor to appear before you again and I 
will briefly summarize my longer statement for the record.
    I approach this important topic from a unique perspective. 
I served on President-elect Obama's NSC Transition Team 8 years 
ago and then I went on to serve for 6 years in the Obama 
administration at the State Department, at the Pentagon, and at 
the National Security Council staff at the White House. So, 
therefore, I follow the assessment of this administration's NSC 
system with great interest, since I both experienced and am 
partly responsible for many of the concerns that have been 
raised.
    Consider the three most common concerns expressed about the 
current NSC. First, that it is too big; second, that it is too 
operational; and third, that it has a proclivity for too much 
micromanagement and too little strategic thinking. And let me 
take each in turn.
    First, most experts and former officials believe that the 
NSC is too big. We certainly thought so during the 2008 
transition from President Bush to President Obama, as does the 
current NSC leadership today. And yet the trend, I think, is 
headed in the right direction. Today's NSC policy and 
leadership staff consists of fewer than 200 people. And my 
understanding is that with the current downsizing underway, and 
there has been about a 15-percent cut in NSC staff since 
January 2015, the NSC staff size that Obama will leave next 
year will be roughly the same as what he inherited from 
President Bush in 2009.
    And it is important to consider these numbers in context. 
Some of the widely cited higher numbers of the Obama NSC staff 
size reflect the back office functions like those staffing the 
White House situation room, the records management personnel, 
as well as the integration of the Homeland Security Council in 
2009. And moreover, even despite its growth, the current NSC 
remains comparatively small. The Joint Chiefs of Staff is over 
seven times larger. The State Department's Office of the 
Secretary is nearly twice the size of the NSC staff, as is the 
staff of the Congressional Research Service. So in many ways, 
the NSC's evolution reflects global complexity and how much the 
world and our Government has changed.
    For example, the traditional regional policy offices, Latin 
America, Asia, Europe, et cetera, have looked similar in both 
size and function during the past several decades, yet there 
are now new policy dimensions the NSC must cover such as 
cybersecurity, climate change, WMD proliferation, biosecurity 
and global health, global economics, counterterrorism. Few of 
these issues were prominent a quarter century ago and none of 
them reside in a single agency, which is why close coordination 
is so important.
    Because of this complexity and the importance for the 
President to maintain flexibility in how she or he can respond 
to events, I believe it is a mistake to impose arbitrary caps 
on the NSC staff size, nor do I believe it wise to make the 
position of National Security Advisor require Senate 
confirmation. And here, I can do no better than echo the 1987 
Tower Commission Report, which studied this issue carefully and 
in its warning that doing so, making the NSC Advisor Senate-
confirmed would undermine the Presidential advisory role the 
National Security Advisor must play and only create more 
bureaucratic confusion and tension than it would resolve.
    Now, concerns about the NSC size relate directly to a 
second enduring critique that the NSC is too operational. Now, 
agencies must be given the responsibility and be held 
accountable for doing their jobs. And in my experience, that is 
what Presidents and members of the NSC staff wanted. But at the 
same time, agencies must operate within the policy parameters 
set by the President. Now, sometimes, when the White House 
tried to enforce regular order and place the agencies in charge 
of a policy, then it was accused of taking its eye off the 
ball. And where you stand often depends on whether you agree 
with the policy direction. For example, Obama's NSC has held 
tight control over U.S. troop levels in Iraq and Afghanistan 
but it is important to remember that the Bush White House 
conducted the same intense oversight when managing the surge in 
Iraq from the West Wing in 2007 and 2008. Moreover, some policy 
issues lend themselves to a strong White House lead and many of 
those delicate tasks require such agility that they are best 
managed from a tight circle within the White House.
    Yet, these must be the exception, rather than the rule, 
which brings us to the third common critique, that by 
micromanaging, the NSC is not doing enough strategy.
    I used to run the strategy office at the NSC. So, I can 
fully appreciate how difficult this task can be. And in today's 
tumultuous policy environment where our President is expected 
to respond to almost everything instantly, it is very difficult 
to keep the urgent from overwhelming the important. Crisis 
management tends to dominate the NSC's operations. And although 
during my time and since, the NSC staff worked very hard to 
allow senior officials the opportunity to think about long-term 
strategy and examine crosscutting issues, it has not nearly 
been enough.
    Mr. Chairman, Ranking Member Engel, members of this 
committee, the recent focus on the NSC's design and operation 
has generated an important debate. I welcome congressional 
attention to this issue. My hope is that by opening up this 
conversation, we can make some necessary changes, empower 
agencies to do their jobs, while ensuring that the President 
gets the advice and support she or he requires to conduct a 
strong, coordinated, and strategic national security policy 
that serves the interest of the American people.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Mr. Chollet follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    
                              ----------                              

    Chairman Royce. Thank you, Mr. Chollet. I think the 
difficulty here, if we look at the drift, is if we look 
Ambassador Miller's report, the report that we are discussing, 
in that report there is a story of a four-star general 
receiving a phone call with orders from a low-level NSC 
staffer. So, the directive did not originate from the 
President. It didn't originate from the Secretary of Defense. 
It didn't originate from the chairman of the Joint Chiefs. It 
originates from a rather low-level staffer.
    Clearly, the goal here is to get back to a system on 
foreign policy that works when different agencies and branches 
play their proper role. What we have to figure out here is how 
to get a situation where diplomats do the negotiating, where 
commanders call in the air strikes, where Congress conducts 
oversight and that is not happening under the current and past. 
The way in which this has morphed over the years has led to 
these problems that we are talking about today.
    And so, I would just ask this question to the panel: What 
State Department reforms are most necessary to facilitate the 
evolution of power from the NSC back to the Department where 
the expertise lies and where you don't end up with low-level 
staff members making these kind of calls to four-star generals? 
How do we get back to the system the way is intended to work 
and in which it will function most effectively?
    And Ambassador Bloomfield, maybe you will add to that 
because you make the point that this has become a problem not 
just at the NSC but also it is something that affects us, 
Congress, and the administration. We have a situation where our 
instinct is to appoint a special position on everything and so 
you have all of the special envoys and all of the coordinators 
adding to the complexity of a situation where the agency that 
is supposed to be in charge of making the decision isn't doing 
its role.
    So, I will open that question to the panel.
    Ambassador Bloomfield. If I may, Chairman Royce, I don't 
believe that the people who strategized American policy during 
the height of the Cold War, when we were 25 minutes from 
extinction from Soviet nuclear weapons, were any less 
intelligent than the people that we have in senior positions 
today. In fact, I would argue that we have too many very 
talented people trying to chase authority, funding, control 
over policy, authorship of policy. And I have many friends on 
the inside who have great difficulty getting a well-considered, 
innovative idea all the way out of the building in the State 
Department.
    And so I think that consolidating offices, and this is 
under both administrations, Republican and Democrat. I have 
spent half my career outside the government. When I had been 
appointed to come in, I asked the question how much sense does 
this activity make? Is this something that we need to be doing, 
that my people should be spending time on, or are we just 
playing ping pong inside the bureaucracy and sending papers 
back and forth?
    So, I think there is a great deal of process that can be 
consolidated. And what happens when you try to show how 
important an issue is by putting a special office in charge is 
that everything else becomes diluted. You dilute the currency 
of high-ranking people so that, in the Congress, you have 40 
plus assistant secretaries. I was very honored to be an 
Assistant Secretary of State. If I were Secretary of State 
today, I don't think I could name them all or recognize their 
faces. These are Senate-confirmed----
    Chairman Royce. Right. Well, there is another element of 
this. And that is part of this goes to the experience or the 
expertise of the staff. One of the questions in this study, the 
explanation from another lower level staff member is you have a 
hard time running the interagency process if you have never 
held a senior position in one of the agencies. So, this is 
another aspect of the problem, in terms of the expertise and 
not consolidating this decisionmaking where it belongs.
    Ambassador Bloomfield. If I may, at the high levels, the 
under secretary level. There was one Under Secretary of State 
under President Kennedy, that was the second-ranking person in 
the department. The President would call the Under Secretary on 
the telephone. There are six or seven today. The same in the 
Pentagon in the Office of the Secretary of Defense. And I 
think, by the way, the Office of the Joint Chiefs, the 
Combatant Command Staffs, I was there when they started to put 
joint JIACs together and was part of the approval process. They 
are thick with all sorts of flavors of experts on their own 
staffs. I think we need to downsize. And what happens is, you 
have high officials who only have one-seventh of the picture. 
How strategic of a view will an administration have if everyone 
has just a sliver or a soda straw view of policy that they care 
about? We need to start elevating people and giving them a 
broad swath of policy authority so that they can think very 
strategically and when the Zika virus becomes a problem, we can 
put a task force together and have it expire once the problem 
is under control.
    Chairman Royce. Well, my time has expired, so I will go to 
Mr. Engel. But it seems to me the NSC should return to its 
original mission of managing the development of policy options 
for the President of the United States. If that can be the end 
game here, I think we can get back to its original function and 
an effective function. Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. I want to echo my 
concern along with you, the two questions you asked about the 
role of Congress. We are very anxious. Many of us feel that 
more and more things are slipping away from what Congress is 
supposed to do and we don't like it and don't think it is good 
for the country. So, I am very concerned about it.
    I believe the chairman also spoke about tsars. And I wanted 
any of you who care to say what observation would any of you 
make about the usefulness of these tsars, the proliferation of 
special coordinators and special representatives that the State 
Department, these were created to shepherd initiatives into 
provide help with the coordination. And sometimes it has 
actually been an impediment to coordination. So, from the 
perspective of the NSC, do these types of structures help or 
inhibit effective interagency coordination? Anyone who cares to 
answer that?
    And let me say, before you do, I want to thank all three of 
you for excellent testimony. And Dr. Miller, I am glad that you 
couldn't have put it better when you said that there is 
difference of opinion way all over the country and I think that 
is important.
    The chairman and I have tried to conduct this committee as 
the most bipartisan committee in the Congress because we 
believe that foreign policy is bipartisan and differences need 
to stop at the water's edge.
    So, I just want to let you know that in the 4 years we have 
been doing this, we have tried very hard. It doesn't mean we 
agree all the time, but we have tried very hard to work 
together. And my commendation to members, my colleagues on both 
side of the aisle, who have worked very hard, even when we have 
a disagreement, we have a good discourse and we try to find 
common ground.
    So, if anybody wants to answer that tsars question, I would 
appreciate it. Ambassador Miller.
    Ambassador Miller. I ended up----
    Mr. Engel. If you could, pull the microphone toward you.
    Ambassador Miller. I will get this. I ended up supporting 
one of our first tsars, when Bill Bennett was given the drug 
war. And so I have spent a good deal of time figuring out what 
support from the White House is appropriate and where it is 
damaging.
    We, I think, have gotten to rely too much on Band-Aids and 
we appoint tsars, or special envoys, or administrators, when 
they are duplicative of functions that already exist but don't 
seem to be moving as fast as the White House would like or 
performing exactly what the White House wants.
    So, my sense is that you need task forces. You need special 
envoys on occasion but your first examination ought to be is 
there an assistant secretary that already has this 
responsibility? Is there a competent Ambassador on-site? 
Because when you appoint a person with duplicative authority, 
it can really set things back. It is just confusing.
    That said, there is going to be a need for these, as we go 
forward, but they ought to be led by the departments and 
agencies that have the lead stake in the issue and supported by 
the NSC.
    Mr. Engel. Thank you. Mr. Chollet, you had your hand up. I 
don't know----
    Mr. Chollet. Yes, well I very much want to echo what the 
Ambassador has said. Tsars have been, in the past, a good thing 
but there is also too much of a good thing. And the tsars that 
I, both at the State Department or at the White House that I 
worked closely with during my time in government, whether going 
back to the Clinton administration, the tsar on the Balkans, or 
during the Obama administration the SRAP structure on 
Afghanistan and Pakistan at the State Department, were 
successful, had some challenges, but were successful in trying 
to bring about greater coordination both within the Department. 
It is also within the broader interagency. But clearly, every 
administration, I think, in the modern era has seen a 
proliferation of these tsars. And when a new team comes in--we 
certainly did this in 2008, I expect the next transition team 
will do the same--is take a close look at these various 
idiosyncratic bureaucratic structures that administrations 
create, sometimes for personnel reasons, sometimes because an 
issue becomes so important that they don't want it to overwhelm 
the other senior officials who have the whole world to worry 
about. But I think we have to be very mindful moving forward 
that there can be too many of these and this will just create 
Band-Aids that don't actually get at the core coordination 
strategic problem that we are all interested in trying to 
solve.
    Mr. Engel. Ambassador Bloomfield.
    Ambassador Bloomfield. Yes, if I may. My last position in 
government was as a special envoy in 2008. I came back part-
time on an issue that the chairman knows about. I was to try to 
travel the world and quietly remove shoulder-fired missiles 
from circulation. And you had to be able to speak to heads of 
government, chiefs of defense, because no second in a ranking 
would ever give up a weapon, you have to go to the top. And so 
I took my orders directly from Steve Hadley and Condoleezza 
Rice and had very strong support from the NSC Counterterrorism 
Team. My observation, though, and this is a little bit of dirty 
laundry, is that there are lots of senior people walking the 
halls of the State Department looking for a job that is at 
their rank and that this is a way. They want these positions. 
It is not clear to me they are all necessary.
    What I would do, and this is probably a little bit out of 
the ordinary but I have seen it in the past, is to identify 
prominent Americans in the private sector and in Congress who 
could be a well-received envoy to deliver a message to a head 
of state, somebody of prominence. And I include members of the 
House and Senate in that list on both sides of the aisle, which 
would add credibility to the President or the Secretary of 
State's message.
    So, I hope we think about that and move in that direction.
    Mr. Engel. Thank you. If the chairman will indulge me, I 
have a quick question that I would like to ask you, all of you.
    The current House language in the fiscal year 2017 NDAA 
calls for Senate confirmation of a National Security Advisor if 
the NSC staff exceeds 100 employees, including detailees. I 
want to quote Stephen Hadley, who is former NSA to President 
George W. Bush. He said, and I quote him, ``If a President 
thought that what he or she shared with the National Security 
Advisor could be compelled in public testimony, the President 
would look elsewhere for a national security and foreign policy 
confidant.'' That is a quote.
    So, do you think that Senate confirmation, any of you, of 
the National Security Advisor would inhibit this person from 
serving the President and does it also raise questions about 
the constitutional separation of powers?
    Anyone care to try it?
    Ambassador Miller. I suspect I speak for all of us but I 
will start off. And that is I don't think advice and consent 
for the President's personal staff makes sense.
    That said, we are in a situation where the Congress needs 
to play a larger role and have a larger discussion with the 
President about how the NSC works and who is selected. Now, 
that doesn't mean a vote but I surely wish that you all and the 
Executive Office of the President have a more candid or active 
discussion about who is there and who is serving.
    Mr. Engel. Thank you.
    Chairman Royce. If the gentleman would yield.
    Mr. Engel. Yes, certainly.
    Chairman Royce. From my standpoint, if you look carefully 
at the language, the intent there seems to me, and it is not 
our language, it is from the Armed Services Committee, but the 
intent seems to be to control the size of the staffing and get 
it back to the original numbers because confirmation isn't 
required, as long as the executive branch concurs with evolving 
back to the original size of the indices NSC staff.
    So, I don't think the intent is to drive confirmation. I 
think the intent is to try to exercise some kind of 
congressional oversight or control over what has actually 
happened in the agency. So, I would just throw that in for the 
mix. I don't know how else to do that but this hearing is an 
attempt.
    Ambassador Miller?
    Ambassador Miller. I think if you look at what we have 
written, indeed, there is very strong support for limiting the 
headcount at the NSC, as it is seen as the root cause of a 
number of subsets of problems. But there is equally strong 
opposition to the advice and consent. So, I think your 
observation is right on.
    Chairman Royce. Yes, I think it is a clumsy attempt to get 
at your objective. So, our hope is to reach a bipartisan 
consensus of a more effective way to get to that objective.
    We go now to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for this hearing. From the ransom payments in Iran, to the 
alleged secret Iran deals, and humanitarian catastrophe that is 
unfolding every day in Syria, the manipulations of intelligence 
on ISIS, there are too many examples of how the White House has 
manipulated information while keeping the Congress and, most 
importantly, the American people in the dark.
    And Mr. Chairman, thank you so much for bringing up Cuba in 
your opening statement because that is a good example of what 
was happening with the secretive nature. The White House 
decided to keep not only Congress in the dark but also cut out 
the State Department and others, even though the White House 
was negotiating with the Cuban regime for more than a year. 
Then Assistant Secretary Jacobson testified before our 
committee in February 2015 that she found out about the 
negotiations just weeks before the announcement. And when 
former Deputy National Security Advisor and now Deputy 
Secretary of State Tony Blinken testified at his confirmation 
hearing in November 2014, he assured the Senate Foreign 
Relations Committee that any change in U.S. policy toward Cuba 
would be done in full consultation with Congress. Well, that 
turned out to be an utter falsehood, as less than a month later 
with zero consultation with the Congress, the administration 
announced what has proven to be a complete failure of a deal 
with the Castro regime. And as we heard from Ambassador 
Bloomfield, NSC staffers shouldn't conduct official actions, 
which are supposed to be the responsibility of agencies that 
are answerable to Congress, and then expect to be immune from 
accountability.
    So, Mr. Chollet, I have a series of questions. We won't 
have time to answer them but maybe we can have a discussion 
afterward.
    Is it worrisome that NSC is not accountable to Congress or 
that when Congress attempts to exercise our oversight authority 
in the foreign policy realm, it cannot perform that function 
because NSC officials do not testify before Congress? Also, 
what steps can Congress make in order to make the NSC more 
transparent?
    There was a time when NSC staffers were trained on the 
proper rules to delineate between the duties and roles of the 
NSC and the duties and roles of the State Department or Defense 
Department, making sure that they didn't overlap and, instead, 
stayed focused on their responsibility in those lanes and left 
the policymaking to the proper person. And I was wondering if 
you received that kind of training when you were at the NSC and 
do you have any idea if training programs of this type still 
exist.
    Also, in November of last year, when I traveled to 
Afghanistan and our generals on the ground indicated that their 
hands were tied when it came to operations, no doubt it was 
because, I believe, NSC was overriding our leaders on the 
field, and former Defense Secretaries Gates and Panetta both 
have complained about NSC staff imposing themselves on their 
jurisdiction. Based on your experience in both the NSC and 
various government agencies, maybe you can help shed some light 
on that.
    Thank you, sir.
    Mr. Chollet. Thank you very much and I would be happy to 
follow up with you as well, if I don't get fully to answer your 
good questions. First, I will take it in reverse order.
    On the tension between White House oversight, political 
oversight, and what is going on in military operations, I 
experienced that on both sides of the ball, right, at the NSC 
staff but then also when I served at the Pentagon as an 
Assistant Secretary.
    And whereas there are examples, and I don't know exactly 
when the example that the Ambassador's report cited about when 
a junior staffer apparently called the Pentagon to ask for 
something that was completely out of order, that is not the 
regular order. That doesn't happen that often, at least in my 
experience. And when it does happen, it should be stopped, 
absolutely. The National Security Advisors I have worked for, 
the Secretary of Defenses I have worked for would not tolerate 
that.
    That said, there is such a thing as Presidential control 
over the use of military force. So, if the NSC staff, on behalf 
of the President, is essentially ensuring that the agencies 
follow the President's prerogative on how that force should be 
used, what kind of targets we hit, what sort of operations we 
conduct, it seems to me that that is something we would want.
    I was struck in 2008 coming into the Obama administration 
how intensively the Bush White House and the Iraq/Afghanistan 
tsar and the directorate that was created to run the surge in 
Iraq, in particular, how deeply involved in military 
operational issues that that team was, much to the distress of 
uniformed military and the Secretary of Defense at the time to 
have a sitting three-star general working in the basement of 
the West Wing, essentially running the surge in Iraq.
    So, I think that should be the exception. It should not be 
the rule, which then gets back to the opening question, which 
was NSC staff, senior NSC officials engaging in direct foreign 
engagements. I think there should be as little of that as 
possible.
    Throughout our history, we have seen National Security 
Advisors take on important missions on behalf of the President 
that are extremely sensitive and secretive. Henry Kissinger's 
opening to China----
    Ms. Ros-Lehtinen. Thank you. That is right.
    Mr. Chollet [continuing]. Brzezinski's normalization of 
China several years later. But then we have also as the Tower 
Commission pointed out, very negative examples of that.
    Ms. Ros-Lehtinen. Well, thank you.
    Mr. Chollet. So, it should be the exception, not the rule.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Chairman. I know I am out of time but thank you for this 
hearing. Thank you, gentlemen.
    Chairman Royce. Thank you. We will go to Mr. Brad Sherman 
of California.
    Mr. Sherman. Last century the high-water mark for the NSC 
was Kissinger. Everything we complain about now was probably 
more true then, in terms of the NSC.
    As to this century, I have seen this committee and the 
House of Representatives in general go from foreign policy 
makers to foreign policy kibitzers that are at least allowed to 
provide some oversight and some input to really an irrelevancy 
because the most important people making and carrying out 
foreign policy don't even come here and pretend to listen to 
us.
    Mr. Chairman, the Armed Services Committee passes an 
authorization bill every year and nothing illustrates the 
importance of that more than that the provision to limit the 
size of the National Security Council is in their bill and will 
be considered in their bill, whereas our bill for 15 years is 
an exercise in--well, often isn't even written. It usually 
isn't even considered by the House and hasn't reached the 
President's desk in 15 years.
    So, what we need to do is say not how can we possibly get 
the most important Presidential advisor on foreign policy to 
come into this room but how can we write an authorizing bill in 
this room that becomes law? And I would like to see us demand 
that we don't appropriate money for foreign policy that isn't 
authorized. And we could do that by insisting that the 
authorizing bill that we pass be joined to the appropriations 
bill and that neither the Senate nor the President should be 
able to get the money without dealing with the authorizing 
provisions. And if we, as a committee, would demand that the 
rule for considering the foreign operations appropriations bill 
include both the authorizing and the appropriation. And I would 
like them to be separate bills but separate bills where one of 
them is thrown away, that is not the best approach. So, if they 
were married, then, when they go over to the Senate, we make it 
plain--you have to have an authorizing and an appropriations 
bill. You go to the President and you say you want the money, 
you have to look at the appropriations; you have to look at the 
authorizations as well.
    Mr. Chollet, I am going to go into a much less significant 
point. You compared the NSC staff to CRS. Is that just the CRS 
foreign policy national security folks? That is not their folks 
on medicine or transportation or whatever.
    Mr. Chollet. Fair enough. I used the most expansive numbers 
both for the NSC staff----
    Mr. Sherman. Right.
    Mr. Chollet. So, I took the most number of them as well as 
CRS to try to make an apples to apples----
    Mr. Sherman. But you looked only at what portions of CRS?
    Mr. Chollet. No, no, no, no. This was the entire thing.
    Mr. Sherman. Okay, so you are saying that----
    Mr. Chollet. So, this is----
    Mr. Sherman. But I mean it is like you are comparing apples 
with a fruit plate.
    Mr. Chollet. So, I included in the NSC staff the back 
office people.
    Mr. Sherman. Yes, but everyone at the NSC staff deals with 
national security. There are people over at CRS who are dealing 
with health policy. So, the fairer comparison would be the 
entire White House and the old Executive Office Building, and 
all the offices of the President, and all the tsars. Because 
otherwise, you are comparing a department at CRS that deals 
with health policy and you don't have anybody at--I hope you 
don't have anybody at the NSC who is focusing on a cure for 
cancer or----
    Mr. Chollet. But there are people on health policy.
    Mr. Sherman. On health?
    Mr. Chollet. I mean not domestic health policy but global 
health is a huge issue.
    Mr. Sherman. Right, global, yes. Okay.
    Ambassador Miller, were you indicating a desire to say 
something?
    Ambassador Miller. My hope is that you all can take a very 
serious look at improving the performance of the State 
Department. I spent most of my life investing capital and 
looking at the performance of companies. Sometimes they are 
good, sometimes they aren't. But whatever, you can learn a lot.
    State needs to step back. You need to help them step back 
and say what do we need to do to make the department work. The 
Foreign Service is a fine, fine institution. I was immensely 
well-served as a political appointee in two Embassies, very 
well served at the NSC. There is more human capability at State 
going to waste than in almost any institution I have ever seen.
    Somehow or other, we need to put our minds together to say 
how can we fix this because----
    Mr. Sherman. So you think maybe Congress should oversee the 
State Department, write an authorization bill, pass it into 
law, and have an agency of the Federal Government act according 
to congressional authorization. That is a brilliant and 
innovative idea, one that we ought to apply to the State 
Department.
    And I yield back.
    Ambassador Miller. I have waited all these years for that 
opportunity. Thank you.
    Mr. Sherman. I yield back.
    Mr. Rohrabacher [presiding]. Well, here we are and it is in 
my hands. There you go. Be afraid. Be very afraid.
    All right, let me just note that I had the privilege of 
serving in the White House for 7 years and I had a lot of 
experience with the NSC and a lot of experience since then and 
during that time, with the other agencies of government. So, I 
have more than just having been here on this side of the 
questioning.
    Let me suggest this. I think that our Government isn't 
working as effectively as it could and should. I think that 
targeting the NSC is the wrong target. Having, as I say, 
experience with all of these players, it is not the NSC that is 
the problem. The problem is we have a bloated State Department 
and a bloated intelligence community. I mean after 9/11, what 
did we do? We made the intelligence community even more 
complicated, put even another layer of bureaucracy between the 
President and his intelligence sources. That is what we did in 
Congress.
    Now, the fact is the National Security Council was 
established so that the President of the United States would 
have people on his staff who could keep up on the issues of the 
day. And now there is a debate whether or not the NSC is 
overstepping its bounds when the President actually engages in 
foreign policy activities that I guess the Congress or other 
people or the State Department feels they should be conducting. 
Let us note that Kissinger made a dramatic difference in the 
history of this country when, at the height of the Cold War, 
when it was going against us, it looked like the United States 
was going down, that he changed the whole dynamics by reaching 
out to China. That happened secretly. I believe if they tried 
to do it through the State Department, that initiative never 
would have succeeded. That would have been undercut and every 
step of the way, not to mention what would happen if the CIA 
and everybody else was involved in it.
    Let me note also that the bad use of the NSC, what 
Ambassador Bloomfield mentioned was the Iran-Contra Affair. We 
had given the contras $100 million the year before to the CIA 
and then all of a sudden we are going to cut them off. There is 
a lot of politics being played on that that culminated, instead 
of letting those guys go, Ollie North took it upon himself to 
make sure they got money for ammunition, et cetera. So, I don't 
think that is an example of how things go haywire.
    And thinking back, the Iran-Contra Affair demonstrated that 
the President of the United States has to be a player in these 
things and has to have a staff that is able to be a player.
    Ollie North, also, I might add, when he was there, took it 
upon himself to reposition a carrier battle group so that when 
the Achille Lauro was taken over that we would have airplanes 
that could actually intercept the terrorists when they were 
captured, if you remember that.
    Now, I don't know if we would have gone through the normal 
channels whether that carrier battleship would force but they 
at least paid attention when Ollie North called up the admiral 
and said, that would be a good place to have put them there in 
case of emergency.
    One personal example I remember and I have been deeply 
involved in the Afghan thing since I was a speechwriter. What 
is a speechwriter doing being involved in helping the 
Mujahideen in Afghanistan? But that is the way it was and there 
was a situation where a general called me and said look, we 
have to take off within a matter of days or there is a field 
hospital that will not go to the Mujahideen on the border of 
Pakistan and Afghanistan.
    And these are men who put their lives on the line for us 
and the Pakistanis are demanding money for our planes to land 
and our planes aren't going to land. And thus, hundreds of 
Mujahideen are going to die because we don't have this field 
hospital that is in the back of the C-130 waiting to go there. 
Can you do something?
    Now, at that time, I am a member of the President's staff. 
I am a Special Assistant to the President of the United States. 
Well, if I had to go call up somebody over at the State 
Department, the CIA, or the Defense Department, it would not 
have gotten done. I know that. Hundreds of people fighting for 
us against the Soviet army would have been dead. And I called 
up a guy at NSC and he said well, we can't do this on our own; 
I can't do this. And I said look, all I want you to do is take 
a call, give a call to our Embassy in Pakistan, and they will 
then tell the Pakistani Government that the White House has 
called and the job will get done. Oh, I can't do that on my 
own. You know what? He called back and he said okay, I will do 
it. Because I told him, I said okay, hundreds of people will 
die who are our best allies in the fight against the Soviet 
Union and they will die because you are not willing to make one 
call.
    He calls back and says okay, I will do it. And do you know 
what? One call and that hospital equipment got there and 
hundreds of lives were saved. We need to have a National 
Security Council that can function, that can do that, that can 
save the lives of those of hundreds of thousands Mujahideen 
fighters or whoever it is that is in jeopardy around the world.
    And isn't NSC involved in crisis management? Okay, the 
President needs a staff to be there during a crisis. Does the 
President need someone for policy analysis so that he is not 
getting hundreds of reports from different points of view? Let 
somebody be there who can digest it over a matter of days, 
rather than an hour when the President has to make a decision. 
No, we need that.
    And I think that the NSC should not be decreased and, 
instead we should try to make the rest of the government more 
efficient and that is where things are breaking down.
    Please feel free to comment on anything I just said right 
down the line, Ambassador Miller.
    Ambassador Miller. On the intel situation, I could not 
agree more. For my 2 years at the White House, I ran the 
Counter Terrorism Coordination weekly meeting, the CSG, Lincoln 
and I got to meet each other then.
    Counter terrorism requires a very tight turning radius and 
that means speed of movement and trust of communicators. You 
can't do that among large bureaucratic structures I don't 
think. Eventually, it gets down to does the J3 trust you? Does 
the head of counter terrorism at the CIA trust you? Do your 
principals trust you as the first line actors? And if they 
don't, you can lose that advantage of information which may be 
stale in 2 or 3 days and you have to move.
    On your ability to call, let us suppose you need to call 
the J3. The problem with a very, very large White House staff 
is that senior officers at the Pentagon don't get to know the 
White House staff and they don't really know who is phoning. 
And you get more stories about the White House called--456-1414 
is not a self-dialing machine. You know----
    Mr. Rohrabacher. Ollie did make telephone calls.
    Ambassador Miller. Listen, I followed Ollie on and Ollie 
and I traded notes on a lot of stuff. I got to know the J3 well 
enough, General Scowcroft and Secretary Gates way back then. We 
all trusted each other. And you could pick up the phone and you 
could call then Admiral Owens, who was Secretary Gates' 
military aid, and say Bill, we have a problem and we have to do 
something in a hurry. Now, Bill knew who I was.
    If you don't have that trust, things don't work right and 
that is one of the problems with having a larger staff. If the 
larger staff stays inside and does analytic work, that is fine. 
But if you are a special assistant, somebody at the Pentagon 
better know who you are when you pick up the phone and say let 
us move a carrier task group. That is a serious decision.
    Mr. Rohrabacher. All right, thank you. And real quickly, I 
am sorry I blabbed on with too much time here, but very 
quickly, if you have some disagreement, please feel free.
    Ambassador Bloomfield. Congressman Rohrabacher, I just want 
to reiterate the importance of the structure of government that 
has worked so well. The NSC staff should be up to the 
President. The President should have whatever staff the 
President is comfortable with, he or she, so long as the staff 
does not do things which would more properly be under the 
purview of both the American people's right to have oversight 
and the Congressional oversight and the authorized activities. 
As long as they are coordinating and operating under the 1947 
mandate, they can have as many people as they want--whatever 
makes the President comfortable--but that line should not be 
crossed.
    The second thing I need to say--Derek has been an Assistant 
Secretary of Defense, and I was in ISA for 8 years at the 
Pentagon--the National Command Authority is sacrosanct. There 
is a famous story in the Nixon administration when Dr. 
Kissinger called Secretary of Defense Laird and said the 
President wants such and such to be done. And he said well, let 
the President call--click. And that is the National Command 
Authority.
    If there are lives on the line and exigencies, if you 
haven't pre-delegated the authority to the people who are 
capable of doing the right thing, whether it is the State 
Department in a Benghazi situation or the Pentagon in a 
military situation in the field, then that is a failure of 
policy, but it is fixable. We just simply need to recognize 
these are the things that have made America work so well in the 
past. We just simply need to recognize the lines and execute 
properly.
    Mr. Rohrabacher. Mr. Chollet.
    Mr. Chollet. I know you are out of time, so I will be very 
brief. I fully agree with what both of my colleagues here have 
said.
    I just want to echo, sir, your point, which is mainly the 
growth of the NSC does reflect the growing complexity and size 
of our national security apparatus and that there are entire 
dimensions of policy that didn't exist 25 years ago that now 
the President needs to fully understand. He needs to have folks 
around him who fully understand. So, that explains a lot of the 
growth.
    I think the NSC is too big. I think it can be smaller and I 
think the trend, as I said, is headed in the right direction 
but I don't think we should have an arbitrary cap on it.
    Mr. Rohrabacher. Yes, I don't ever remember getting a 
briefing on the threat of cyber-attack back during the Reagan 
years.
    Mr. Sires, you are now recognized.
    Mr. Sires. Thank you, Mr. Chairman. It is all right that 
you went over a little bit.
    First of all, this is a very informative hearing. I want to 
thank you for being here. On one side we have experience, on 
one side we have youth that has worked, and Ambassador 
Bloomfield, you are in the middle somewhere, as far as--but it 
has been informative.
    And from what I gathered, I would tend to think that the 
NSC is just too large. I have problems thinking that a staffer 
can call a four-star general and say, ``Do this.'' To me, that 
is--I guess I have been involved in politics a long time and it 
is not your enemies that get you in trouble but your friends or 
people that work for you. And I think that that is a very 
possible scenario and it has happened. But as it gets larger, I 
think it is even more something that can happen and I have a 
problem with that.
    I have a problem with the NSC negotiating. They negotiated 
secretly. We had here people from the State Department and we 
asked them about certain negotiations, especially with Cuba. 
And I don't know if they wanted to lie or not but we were told 
that they weren't negotiating when, in reality, there was 
negotiations going on. And I would think that if they are 
negotiating secretly and you have a State Department person 
come before this committee and you ask them the question, and 
she will say no, they weren't, I would take it at her word that 
she didn't know that secretly somebody was negotiating. And to 
me, that is a problem.
    We are a State Department. We are very careful with people 
who are capable of doing the kind of work that some people at 
the NSC is doing. I also think that sometimes this committee, 
the NSC, is used as a buffer. This is to keep people away from 
reaching maybe the presidency or the President using the 
committee to keep other people away. There has got to be 
somebody in-between to absolve any responsibility.
    So, I really don't think that keep growing this committee 
is going to be helpful to this country or is going to be 
helpful to the President. I think, as Ambassador Miller 
expressed, there are many capable people working in different 
places in the State Department where they are tripping over 
each other to do something. And they could do some of the work, 
instead of growing this committee.
    And can you just tell me what you think it started to go 
wrong with this committee, this NSC committee? Where did you 
see that it started going wrong, with your experience? When did 
it take the wrong direction? Let me put it this way.
    Ambassador Miller. A very inelegant answer is that 
apparently over time, within the 18 acres at the White House, a 
sense that speed of movement was critical. And that goes way 
back, if you look at the graphs here, it goes way back to the 
Clinton administration, which we saw our first very big spike 
in NSC staff.
    The illusion from my standpoint is that speed of movement 
is more important than wise decisionmaking. Wise decisionmaking 
is frequently slow and difficult and there are many times in 
which speed of movement is the most important issue that you 
are looking at. But it has become an excuse, I think, for not 
involving institutions that seem to move too slowly, that have 
a lot of wisdom and experience. This study began more than 2 
years ago when I called some of my agency friends who had been 
involved in the Afghan situation and I said, really, nobody 
talked to you about what we were doing in the Middle East. And 
the answer was no, nobody talked to us. And I said you have got 
to be kidding me.
    So, I don't have an elegant answer to that but I think one 
thing is that the White House has pushed on an open door. The 
Congress has allowed this to occur and it is not healthy for 
the Congress and it is not healthy for the White House either.
    Ambassador Bloomfield. Congressman, could I just say that I 
think this suggests a larger solution? I know people have 
specific complaints about the NSC staff, probably in both 
administrations, Republican and Democratic. Part of it is not 
their fault because with the tools and information they have, 
with the real-time media contacts, with Ambassadors coming and 
calling at the White House as well as the State Department and 
possibly visiting military dignitaries, the question arises of 
what can the State Department do that the NSC staff can't do. 
There is a little bit of ``we can do it all here.'' And part of 
it is because of technology and just the press of business.
    So, I think without blaming people, we can look at that and 
say what can we do. Because if it goes much further, it does 
cross the line where there is no oversight and Congress can't 
call them before--they can't confirm the appointees. And the 
President should not want that to happen.
    So, there needs to be a conversation. I, personally, think 
that Congress has immense power over the next President that 
could be a subject of discussion during the transition, and 
before knowing the result of the election, that has to do 
partly in the Senate with the confirmation process and partly 
with the amount of hearings and questions for the record. These 
are things which are enormous burdens on an incoming 
administration. If their appointees are going to be slow to be 
confirmed, if they are going to get thousands of questions that 
the bureaucracy will be tied up answering, you have something 
to bargain with. And this might be, Congressman Engel had 
brought up the question of, an authorization bill. I would like 
to see a grand bargain, where there are fewer high officials in 
the Executive Branch and frankly, maybe a few fewer gavels in 
the Congress so that we can get back to a leaner, high-level, 
principal-to-principal process.
    My congressman is yelling at me. I will stop.
    Mr. Sires. Thank you very much.
    Mr. Connolly. Would my friend just yield for one quick 
observation?
    Mr. Sires. Sure.
    Mr. Connolly. Because I want to return to this when it is 
my turn. Ambassador Bloomfield, excellent point but I want to 
make one point. The change up here with respect to the NSC came 
out of the military, not the State Department. And that causes 
me grave concern about the dismissal of Young Turks calling a 
four-star and daring to ask or tell something. That is not a 
good enough reason to revamp the entire national security 
apparatus of the President of the United States, which I think 
my friend, Mr. Rohrabacher, was making as well.
    So, I want to engage in that when it is my turn but I think 
it is important to remember the genesis of the proposed change 
in the legislation. It didn't come out of the Foreign Policy 
Committee on the Hill. It came out of the Armed Services 
Committee.
    And I yield back.
    Ambassador Bloomfield. Well, if I may, Congressman 
Connolly, I never thought of myself as an old codger but I know 
a lot of four-stars, retired and some active duty, and it has 
been my privilege to know them. And I have seen them during 
situations where they may even not take guidance from the 
Secretary of Defense on certain things, like ROE in a situation 
where they need to keep the peace the first day of an 
intervention. I know these folks and I have been there. Derek 
will have his own experience.
    It is unfathomable to me that a four-star commander in the 
field would take guidance from a staffer in the bureaucracy. It 
is unfathomable to me. I don't understand it.
    Mr. Rohrabacher. Mr. Chollet.
    Mr. Chollet. Just very briefly, I agree with that. And 
again, my experience is that that is a rare occurrence, where 
there is a junior staff who tries to call a four-star or a 
lieutenant colonel working in the NSC who calls an admiral to 
move a carrier battle group. It is an exception and not the 
rule.
    Just one very quick observation on this question of 
oversight. When I served at the White House, I always found 
myself toggling back and forth between two perspectives. One 
is, why aren't the agencies doing what the President has 
decided? So, he decided to do something. Why isn't this 
happening or why is it happening too slowly? Or it is, what are 
they doing? The President hasn't decided yet. They are creating 
facts on the ground before the President has been able to 
actually make a decision on what he wants to do.
    And I never found a way out of that dilemma, personally. 
And so I do think that there is a sort of secular trend toward 
greater oversight because, of course, that is the common answer 
for both. You hold more meetings. You do more taskings. You try 
to hold agencies accountable. And I think in some ways it goes 
back to this issue of we ultimately do hold the President 
accountable. When things go wrong, the President is blamed. 
When things go right, the President gets credit. And so the NSC 
staff as an extension of the President tends to be more 
involved in the policies and tasks.
    Mr. Rohrabacher. Well thank you very much. And that means 
that the President has to be accountable for what his 
appointees do or her. There you go.
    Mr. Perry.
    Mr. Perry. Thanks, gentlemen. Thanks for all of you for 
being here. It is a fascinating conversation. Minute by minute, 
it leads to new questions, at least on my behalf.
    And I think about the most recent one on accountability of 
the President. You know I hate to bring up the sore subject of 
Ben Rhodes but I don't see any accountability. I mean I see Ben 
Rhodes on the TV from Laos this week and I, myself, wrote the 
President a letter asking him to relieve Ben Rhodes for his 
forays that were made public.
    That having been said, I know the 1947 Act doesn't 
specifically talk about qualifications but you fine gentlemen 
who have worked in the industry maybe could lead us in the 
right direction. And I would also say right here that I am not 
an advocate of Congress meddling too much in the President's 
business. And I think that regardless of the President's party 
or who that person is, everybody wants the President to have 
the tools that he or she needs to complete the mission. But it 
is apparent, I think, to most people, that this things is 
pretty broken for whatever reason. And without any 
congressional oversight, we are completely relying on the 
executive to make the correct decisions. And once it gets a 
level or two below him or her, it seems like the rules are 
being made up as they go for the expedience of whatever at the 
moment is garnering the attention.
    So, with that in mind what should--I looked at Ben Rhodes' 
qualifications, knowing what he was involved in, the level. 
This is national security. This is national policy that affects 
millions of lives and the world and I think that the 
qualifications for that individual have to be profound and 
robust in my opinion. I mean I don't have the qualifications to 
do what some of these folks are doing and I wouldn't deign to 
think that I do. What should they be and how does that come 
about?
    Anybody.
    Ambassador Bloomfield. If I could give a perspective, 
Congressman Perry. I can't answer about individuals in the 
current administration but it has been my observation, and I 
made this in my testimony, that because the agencies in the 
national security space are so bloated with so many empowered 
people doing you name it, there are 80 direct reports to the 
Secretary of State by my count. That is just an unbelievable 
fact. And I would say OSD and OJCS and, as Congressman 
Rohrabacher pointed out, the intel community with 800 new 
billets layered on top of the 16 agencies.
    So, that is out there. Now you have the NSC staff which has 
grown into several hundred. And if you could just imagine, and 
we all can try to imagine, the President inside the Oval Office 
saying, ``Who are all these people?'' You are getting huge 
amounts of paperwork from all of these agencies. Then, you have 
hundreds of people that you met once, when they came in to say 
hello and take your picture. I sort of can understand why he 
would take five people that he trusts and say close the door, 
we will figure it out. Sort of a treehouse mentality. I don't 
mean to be----
    Mr. Perry. And I would agree with you. It is just a process 
problem. My perception in years past is that it was four or 
five, 10 people that the President trusted and that is who the 
NSC was now. It is apparent now that that is who the current 
President trusts and I don't blame him. But who are all these 
other people and why do we need them? What have they got to do 
with anything?
    What are their responsibilities regarding the national 
security strategy? Anybody?
    Mr. Chollet. Sure. And Congressman, I served for a year and 
a half as the Senior Director for Strategic Planning at the 
White House. In terms of the creation of the national security 
strategy of the United States, which happens once every 3 years 
or so----
    Mr. Perry. But you know what the statute is, don't you?
    Mr. Chollet. Yes, yes, yes.
    Mr. Perry. So, in 8 years now, we will have it done twice 
when it is required every single year.
    Mr. Chollet. Sure. I mean unfortunately, as someone who 
owned the strategic planning operation or ran it, I would have 
wanted to see it done more often but it has traditionally been 
done, going back to when the statute was created, I think twice 
in an administration. Bush did it twice. I think Clinton did it 
twice or did it more than twice.
    Mr. Perry. So, do we need a change in the standard since, 
apparently, we can't abide by the standard? What are the 
consequences of not abiding by the standard? Poor policy, 
right? Poor execution.
    Mr. Chollet. I believe there should be more strategic 
thinking in the White House. I very much applaud that 
recommendation in Atlantic Council's Report. As I said, we 
tried mightily to give our senior policymakers more time to 
think strategically and get out of the inbox but the press of 
events has been unrelenting.
    And just very quickly, if I could, sir----
    Mr. Perry. So, hold that thought for a minute and then 
continue it afterward. But do you have a recommendation 
regarding--to me one of the bigger issues is we have all these 
new people, all these great minds. We can't even get a national 
security strategy out. How does the national military strategy 
follow no national security strategy? How does anybody know 
what the plan is?
    Mr. Chollet. I think one of the most important things that 
a new administration can do is try to get the sequencing right 
in how they do these strategies because no administration has 
gotten it right, where you start with the national security 
strategy, then you do the QDR, then you do the QDDR, and then 
you do all the other sort of agency-level strategies. And 
unfortunately, because of different oversight committees, 
different processes in the different departments, those are not 
well-aligned and it doesn't make much sense. I concede that.
    Can I just say very briefly, not to get into individuals 
but I should, Ben Rhodes is a friend and colleague. I worked 
with him very closely during my time in the administration. He 
is one of the most talented people I have worked with in 
Washington. I have worked here for 20 years with a lot of 
talented people.
    That said, both at DoD, State, and at the NSC, there a lot 
of folks that I worked with who were the best in the business 
and there are a lot of folks I worked with or some, I should 
say, that I worked with and I wondered how they got there.
    This goes back to a question that I was given earlier that 
I didn't get a chance to answer which was there isn't really 
any quality training done really in any of the positions in the 
national security field. Basically, once you get out of school 
or if you are in the career foreign service or in the military 
you get a chance to do a stint at NDU, I think that is 
something we should take very seriously. I believe in past 
authorization bills from the State Department, that issue has 
been looked at, sort of career professional training but to 
ensure that we do have a higher standard in all of our agencies 
for senior officials.
    Mr. Perry. Let me just conclude with this, Mr. Chairman. 
Regardless of Ben Rhodes' talents, and I acknowledge he seems 
like a very talented individual by what I have read and what I 
have seen, nothing, nothing at all regarding his talent 
explains or justifies deceiving the American people outwardly, 
regardless of the policy outcome.
    The ends do not justify the means and I find it 
reprehensible, unacceptable, and I think it is a black mark on 
the administration and on American policy and that is my 
opinion.
    But with that, I yield back.
    Mr. Rohrabacher. Thank you. He ended it on a different kind 
of note. That is fine.
    But Ms. Bass, you may begin it on any kind of note that you 
would like.
    Ms. Bass. Well, thanks for letting us know how you really 
feel.
    Thank you very much for your testimony. I think this has 
been a very, very, very interesting discussion. And I just 
wanted to ask a few questions.
    One, as I listen to the three of you, and I want you to 
tell me whether I am right or wrong, there are things that need 
to be improved in the NSC but I don't think I heard any of you 
say that we are in some kind of crisis and that there is 
something terribly wrong.
    I guess listening whether we should increase or decrease 
the staff, what worries me about that is that it seems rather 
mechanical and I can absolutely appreciate what you were saying 
Mr. Chollet, if I am pronouncing your name correctly, about how 
things have changed so much, especially from Bloomfield, you 
know what you were saying.
    Mr. Chollet, you mentioned climate change and I was 
wondering how--cybersecurity I certainly understand but I was 
wondering if you could give me an example of how climate change 
fits in there.
    But if each of you could respond to: We are not in a 
crisis, there are things that could be improved, but there is 
no great disaster happening. Am I correct in what I hear?
    Mr. Chollet. I will take the first shot, if I could.
    Ms. Bass. Okay.
    Mr. Chollet. I agree with you. I don't think it is a crisis 
but I think it is legitimate and good that this committee, the 
Congress, the strategic community, those of us on the outside 
now are looking into this issue because we have an opportunity 
here coming up with a new President taking office to reform the 
NSC, to try to right-size it, to try to ensure that we are 
getting the most we can out of it, and to help the incoming 
administration think about these important issues that they are 
going to be inheriting because the NSC is very malleable.
    The only thing in statute is the members of the actual NSC, 
the senior level members, and establishing the Executive 
Secretary. Everything else, the President can do things totally 
differently. And so climate change is a perfect example where 
that is an issue that didn't exist much 25 years ago and now, 
of course, it has been a major issue internationally and a 
major priority for this administration. So, although it is an 
issue set that doesn't solely reside in the NSC because there 
are other agencies within the Executive Office of the President 
that deal with the various issue of climate change, clearly, 
the effort of the United States Government to try to get at 
this issue, both in terms of how we behave here at home but 
also how we negotiate abroad is something the NSC has had to 
follow as the President has been engaging in international 
diplomacy on this issue.
    Ms. Bass. Oh, so it is because he has been engaging in 
international diplomacy that he has----
    Mr. Chollet. Both. I mean it is a priority. This is one of 
the greatest international----
    Ms. Bass. Right. I just didn't see. I mean believe me, I 
understand the significance of climate change. I just didn't 
see its relation here.
    Ambassador Bloomfield. Can I just take a moment?
    Congresswoman Bass, I will be the one that says crisis is 
too strong a word but the bus only shows up every 4 years 
before an election when you can think a little bit out of the 
in-basket and say what should we be fixing.
    I think we have something verging on a crisis in our 
national security community----
    Ms. Bass. Okay.
    Ambassador Bloomfield [continuing]. And it is not personal 
to President Obama or any of the members of his team who have 
been named today. It is broader than that and it is more 
historic.
    There is a foreign diplomat in Asia who made a comment a 
few years ago that is true. He said when he deals with other 
governments, they take 20 percent of the time figuring out 
their policy and 80 percent implementing it.
    Ms. Bass. Oh.
    Ambassador Bloomfield. But in Washington it is reversed.
    Ms. Bass. Yes.
    Ambassador Bloomfield. I have spent much of my life 
watching the internecine battles between people trying to hang 
onto their authority, their issue. I will give you one example. 
My old bureau, the Political Military Bureau, went into Libya, 
after Ghadafi was taken down, to look for loose weapons and 
shoulder-fired missiles and arms with U.N. folks.
    Then came Syria. And I remember Congressman Royce held a 
hearing on Syrian chemical weapons. But because chemical 
weapons are WMDs, that is a different bureau. We had teams on 
the ground, operational, with communications, ready to go, but 
a different bureau said no, that is my turf. And that is just 
one of a thousand, I used the term ``thousand bowls of rice'' 
in my testimony and I see that. And I think we need to address 
it.
    Ms. Bass. Okay.
    Ambassador Miller. Very quickly, Ms. Bass, I think crisis 
is the wrong term but it is close. Crises today seem to be 
defined by what is on the right-hand column of The Washington 
Post front page, whatever. We are in a significant crisis in 
terms of the stature of the United States in the world, full 
stop. If you are traveling out there, you are going to get an 
earful. If you are an old Ambassador, you are used to being 
criticized. But it is getting worse and we need to step back 
and take a serious look about how our country is developing 
international strategy and as Linc was saying, then, how we 
implement.
    Much of our report focuses on the fact that there may have 
been reasonable strategic decisions made but the implementation 
was poor enough to jeopardize the outcome and I think that is a 
very serious issue.
    And one last observation and that is, one of the things 
that you are observing is the White House is trying to solve 
many, many, many problems. There is not a staff at the White 
House of the size to solve all the problems that really fall 
under the jurisdiction of cabinet secretaries and agency heads.
    And so I think one of the things that we need to look at is 
the proper use of the cabinet officials and the agency heads to 
say the President cares a great deal about X and he wants you, 
Madam Secretary, to go do that, not to add another layer of 
people at the White House.
    Thank you.
    Ms. Bass. Thank you.
    Mr. Rohrabacher. Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    So, I think that there are probably too many people in the 
NSC. I think there are too many people in a lot of parts of 
government but to me, it is the authority that they are 
exercising that is more important than the sheer numbers. In 
other words, if I had to choose between a bloated staff that 
was basically serving the core advisory function versus a 
leaner staff that was actually usurping the authorities of the 
secretaries, I would choose the former. Are most of you in 
agreement with that? I know Ambassador Bloomfield.
    And part of the reason is I think when you have the model 
gravitating toward where is more policy being implemented by 
the NSC, it really detracts from the accountability that the 
American people have.
    I mean, for example, Ambassador Bloomfield, I saw you 
served in different positions. You had to get confirmed by the 
Senate for those positions.
    Ambassador Bloomfield. Yes.
    Mr. DeSantis. And those were Deputy Assistant posts in the 
State Department?
    Ambassador Bloomfield. Assistant Secretary and above.
    Mr. DeSantis. Right. At the NSC, for example, we mentioned 
Ben Rhodes as the Deputy. He did not have to get confirmed by 
the Senate, correct? And he has been described as the most 
influential voice shaping U.S. foreign policy, other than 
President Obama, himself.
    And so I think that somebody who is really wielding that 
much influence in our affairs of State should at least have to 
sit and get Senate confirmation. And if Rhodes is an advisor to 
the President and that is what he is doing, fine. But if he is 
implementing policy, if he is crafting things with the Iran 
deal, with Cuba, that becomes much different. And Ben Rhodes, 
and I appreciate your comments about him, obviously, we have 
had disagreements with him because of how the Iran deal has 
been handled. We wanted to invite him to testify but he is a 
member of the staff and so he doesn't come. He would not have 
been able to be confirmed to be Secretary of State or Secretary 
of Defense. I mean that is just the reality of the situation.
    So, you are putting people who are implementing policy 
without having the check of Senate confirmation. And again, if 
there are White House advisors, I don't want us dragging in an 
actual counselor to the President. I think that there are 
absolutely legitimate separation of powers concerns there.
    But then you also have this idea of putting the power in 
the hands of the NSC staff; then, you don't have congressional 
oversight, which is what we need to do.
    Secretary Kerry has to come here because Congress controls 
the budget. Secretary of Defense has to come here and they have 
to answer questions about how the policy is being conducted. 
That is good for Congress but it is also good for the American 
people to be able to see what is going on.
    As I mentioned, we wanted to figure out how this Iran deal 
happened. We invited Ben Rhodes and he declined to come. And I 
think his position, as it should be, I think that would be 
legitimate but I think he was exercising authority that went 
beyond that.
    And then I guess the final thing that I think about when 
you have people on the NSC staff getting involved with military 
commanders in the field, totally going outside the normal chain 
of command. If we had military commanders that bucked the chain 
of command, they would never be able to get away with that. I 
mean that would be a cardinal sin to do it. And so we have a 
very clear chain of command. When you have a combatant 
commander they are reporting up to the Secretary of Defense and 
then to the President. It should be that we can't have the NSC 
staff just basically going around the chain of command.
    Ambassador Miller, you wanted to----
    Ambassador Miller. Yes, just very quickly on that. At least 
one of our intelligence agencies has handled the communications 
issue by basically saying no calls to staff in the field from 
the White House will be answered, full stop. Those calls will 
be referred to a headquarters across the river and we will 
worry about responding to staff.
    We got, in our interviews, we got really, really tough 
commentary from the military. You all know General Mattis and a 
wonderful group, virtually all from the Naval Service, who felt 
very strongly about that.
    One other, just one comment on confirmation. I, obviously, 
went through the confirmation process in the ambassadorial 
assignments and I found it very valuable. I learned a lot. An 
Ambassador represents not just the President but the country. 
So, I think a dialogue with the Congress is actually very 
helpful.
    And when I was at the NSC, I was immensely comfortable 
coming up here to discuss issues where I knew members had 
concerns and nobody had to ask me to testify. I was happy to 
come up and talk. And I think that the end of my testimony 
speaks to that and that is, you can't legislate trust. You 
can't change organizations to create trust. You have to just 
begin to work with each other to the point that you say yes, 
these are all pretty bright guys and they all care about the 
country. And I hope that is where we might begin to move here.
    I am sorry I took so long with that.
    Mr. DeSantis. That is okay. My time has expired but I 
appreciate all of you guys coming and testifying. And I think 
that there is probably a consensus that this is not operating 
the precise way it was envisioned and we would like to see some 
changes with the next administration.
    I yield back.
    Chairman Royce [presiding]. Thank you, Mr. DeSantis.
    Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    I will inform my friend from Florida I don't know that we 
all agree. I certainly don't agree with his analysis in terms 
of the prescription.
    Frankly, how Congress is approaching this through the Armed 
Services Committee, not through the Foreign Affairs or Foreign 
Relations Committees, reminds me of H. L. Mencken. You know for 
every human problem, there is a solution. There is a solution; 
simple, neat, and wrong.
    I mean I heard my friend Mr. Perry talk about maybe that 
old system of 10 advisors is what we ought to go back to. Well, 
I mean, if you are worried about unwieldy bureaucracies in the 
White House, let us go back to Lincoln's model. He had two 
secretaries. Would that work? That would certainly not be 
unwieldy. I don't know that it would. And he had to deal with a 
Civil War. So, what is wrong with that? It is a big, difficult, 
complex world.
    Ambassador Miller, you mentioned one of the prescriptions 
was, make the State Department work. I thought that was a 
profound statement.
    Ambassador Miller. Yes.
    Mr. Connolly. One of the reasons a President turns to a 
group of advisors is because the bureaucracy doesn't work for 
them.
    Ambassador Miller. I know.
    Mr. Connolly. Thank God there were low-level people telling 
the President a different thing than Curtis LeMay during the 
Cuban Missile Crisis. If we had followed the chain of command 
strictly, rigidly, after all, he has the stars, he has been 
confirmed, we would have gone to World War III. Curtis LeMay 
wanted to bomb Cuba, even though he didn't even know that in 
fact some of the missiles in fact had already been nuclear 
tipped and were acclimated. Thank God there were other voices 
than the chain of command.
    There are times the bureaucracy, and I don't mean that in 
any pejorative way, produces great statesmen and stateswomen. 
And thank God it does. The very best rises to the top. There 
are other times that is not so true. And the President has to 
rely on a group of younger people to give him some advice and, 
soon, maybe her.
    And so it seems to me, a little thing up here, Congress 
doesn't do nuance. And so if you look at the legislation, what 
does it do? What is our fix for this vague problem, that it is 
too big? Well, I don't know. What would make you happy? What 
would be the ideal Goldilocks solution for the NSC size?
    And by the way, why have we chosen the NSC? Mr. Chollet, 
you mentioned, would you remind us how big the staff of the 
Joint Chiefs of Staff at the Pentagon is?
    Mr. Chollet. It is roughly seven times larger than the 
current NSC.
    Mr. Connolly. Seven times and no one is talking about that. 
Is that a problem? When you were in the White House, was that 
ever a problem?
    Mr. Chollet. They had more charts than we did.
    Mr. Connolly. Was there ever confusion as to who was 
speaking for whom?
    Mr. Chollet. No.
    Mr. Connolly. Well, I just I think we need to tread 
lightly. I don't think that the legislation only ought to have 
the imprint of the Armed Services Committee. I think it needs 
some foreign policy overlay and I think we need to understand 
what problem it is that we are fixing.
    It may be that it is too big and too unwieldy and not 
coordinated and some people overstep their lines. Of course 
that is going to happen but does that merit draconian 
legislation that says you can only have 100?
    How many are on the NSC staff now, Mr. Chollet?
    Mr. Chollet. It is about 190 policy staff.
    Mr. Connolly. Okay, so we are roughly cutting it in half. 
And if you want to go above that, as the chairman indicated, 
NSC gets confirmed.
    Now, this is why I cited Mencken. Let us assume for a 
minute, stipulate there is a problem and that is the problem. 
The solution guarantees all the things you don't like, 
guarantees institutional friction until the cows come home 
because now I am your equal. I am confirmed, too. And I got 
actually official status to get you in a lot of trouble over 
there at the State Department or the Pentagon because I am 
confirmed like you are. And I am not sure that is the solution.
    You know if there was someone who understood that, it was 
the guy who probably started all this problem, Henry Kissinger. 
Because when he finally got the confirmable job, he kept the 
NSC job, too, because he didn't want that tension. And that is 
an interesting model for us to contemplate.
    At any rate, I am sorry, but the chairman has graciously 
said I could have an extra minute or two to compensate for Mr. 
Rohrabacher. So, this is your comment.
    Ambassador Bloomfield. Could I just put another idea before 
you? And this is in the spirit of nonpartisanship. Every time 
there is an election, the winning team has a plum book and 
gives away political appointments. I have been in an political 
appointed position for five administrations. We have watched, 
over the decades, as lower and lower levels of the bureaucracy 
are awarded to political appointees, people who are loyal, who 
were helpful on a campaign, that sort of thing, who may have 
been contributors. And I think that we could look at that issue 
and ask, because as Mr. Perry brought up the question of 
qualifications, it may be there are just too many jobs in the 
foreign policy bureaucracy being awarded to people who had 
talents in the political arena but really didn't have 
background or any seasoning in the foreign policy and national 
security arena. And that is something that would be a 
bipartisan endeavor. So, I thought I would put that out there 
as part of the record of the hearing.
    Ambassador Miller. Mr. Connolly, I think it is time for a 
nuanced look at the State Department.
    Mr. Connolly. And I reiterate, that is not us.
    Ambassador Miller. Yes, but somebody up here has to have a 
nuanced approach to the State Department. It is an institution. 
And I will say this again, every foreign service officer that 
came out of the White House who worked for me, they were 
superb. You put them back in the State Department and they are 
put back into a structure that doesn't function well.
    The cure, if you will, is complex. It is a problem that has 
grown over many years. And I would hope that a group of staff 
people up here could begin under your direction to say what all 
might we consider as a new administration arrives to make the 
Department work better. If it doesn't, you are not going to 
solve whatever NSC problem you think you are facing.
    Mr. Chollet. Just one brief comment. And I think this is 
why this hearing is so important because it creates the space 
for a new administration to perhaps make some change.
    I can speak personally from the transition from Bush to 
Obama, where we also came in with some big ideas about how the 
NSC should work better; the NSC was way too big under President 
Bush and we would make it slimmer and hold the agencies 
accountable. But then once in office, there was also an 
imperative don't screw up. Don't change things for the sake of 
changing things before you actually know what you are doing, 
particularly when we are a nation at war.
    And this gets back to holding the President accountable. We 
want and the President should be held accountable. The 
President is the one who got elected. But at the same time, in 
order help the President make the system work as best as she or 
he can, there also needs to be a sense that there is space that 
should be allowed to make those important decisions and, 
perhaps, absorb some risk because that is part of the issue--
the President's national security advisors don't want to take 
the risk. If I cut the staff too much and take away that 
oversight and that accountability that I am trying achieve here 
to serve the President, then we are going to get burned on the 
other end if something goes wrong.
    Mr. Connolly. Mr. Chairman, I just want to thank you for 
the indulgence and I think our witnesses were great. And I 
really think this is a great contribution to a very important 
subject and I would hope that our committee will weigh in and 
not cede this entirely to the Armed Services Committee because 
I think it is just too important.
    And again, I thank you so much for holding this hearing.
    Chairman Royce. Well, I thank you, Mr. Connolly. And I do 
think we may have stretched a point with Mr. Bloomfield's 
opinions on the bureaucracy at the size of the Pentagon. Based 
on his writings, I suspect he is every bit as much concerned 
with the size of the bureaucracy there as he is with the size 
of the NSC.
    I would just make a point that there seems to be no 
disagreement among those that have worked at the NSC that the 
current size increases dysfunction. There does seem to be that 
conclusion. Reducing its size can only help and it is good that 
the administration is moving in that direction.
    I want to also express my appreciation for the time of our 
witnesses today. This has been, I think, as I share Mr. 
Connolly's view, that this should be the purview of this 
committee. This has been a very informative hearing. We have 
had good participation today from the members.
    As Ambassador Miller said, the NSC is the heart of the 
foreign policy machine. And I took that analogy to heart but 
your other point is that there can be heart failure and then we 
have a massive problem. And you know I think the next 
administration's goal should be getting back to the core 
function of the NSC and that is coordinating policy, 
coordinating policy where the diplomats are doing the diplomacy 
and the military has oversight over the military and the NSC 
can give the President the policy options that it is intended 
to. And if not, then Congress has to step in and that is 
especially true when it comes to accountability. That is our 
role.
    And I thank our witnesses again. And, Mr. Connolly, thank 
you.
    We stand adjourned.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
         
         
         

  Material submitted for the record by the Honorable David C. Miller, 
 Jr., Non-Resident Senior Fellow, The Atlantic Council (former Special 
         Assistant to the President, National Security Council)
         
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
         
         
         
[Note: The entire report is not reprinted here but may be found on the 
Internet at: http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105276]


     Material submitted for the record by the Honorable Lincoln P. 
  Bloomfield, Jr., Chairman of the Board, The Stimson Center (former 
Assistant Secretary for Political Military Affairs, U.S. Department of 
                                 State)
                                 
                                 
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                                 
                                 
  
                                 [all]
</pre></body></html>
